NO. 21-

IN THE UNITED STATES SUPREME COURT

TERM

SUSAN KAYTLIN SCOTT,
Petitioner,
ve
UNITED STATES OF AMERICA,

Respondent.

MOTION TO PROCEED IN FORMA PAUPERIS

Elizabeth T. Musick
Musick & Tierney Law, PLLC
CJA Panel Attorney
P.O. Box 726
Bozeman, MT 59771
(406) 235-1456

Counsel for the Petitioner
MOTION TO PROCEED IN FORMA PAUPERIS
Comes now, Elizabeth T. Musick, of Musick & Tierney Law, PLLC, counsel
for Susan Kaytlin Scott, and hereby respectfully moves the Court for leave to
proceed in forma pauperis. In support thereof movant would show under the Court
that she was appointed to represent Ms. Scott under the Criminal Justice Act, see 18
U.S.C. § 3006(A)(d)(6), in the District Court. Leave to proceed in forma pauperis
has not been revoked, nor has it been previously sought in this Court.

DATED this 16" day of July, 2021.

Respectfully submitted,

MUSICK & TIERNEY LAW, PLLC

By:
Elizabeth T. Musick
P.O. Box 726
Bozeman, MT 59771
(406) 235-1456
CERTIFICATE OF SERVICE
The undersigned hereby certifies that a true and exact copy of the foregoing
has been served upon the Solicitor General of the United States, Room 5616,
Department of Justice, 950 Pennsylvania Ave., N.W., Washington, D.C., 20530-
0001, and to Kalah A. Paisley, Assistant United States Attorney, P.O. Box 3447,
Great Falls, Montana 59401 through third-party delivery (U.S. Mail). AUSA Paisley

has also been served via email.

This 16" day of July, 2021. ©

py, one

Elizabeth T. Musick
